No,
IN THE SUPREME COURT OF THE UNITED STATES

KIM BLANDINO
PETITIONER
vs.
THE EIGHTH JUDICIAL DISTRICT COURT
OF THE STATE OF NEVADA, IN AND FOR
THE COUNTY OF CLARK AND DISTRICT COURT
JUDGES OF THE EIGHTH JUDICIAL DISTRICT
COURT JUDGES OF THE EIGHTH JUDICIAL
DISTRICT COURT,
and
THE STATE OF NEVADA
RESPONDENTS
PROOF OF SERVICE
I Kim Blandino do hereby state under penalty of perjury that I deposited in the U.S.
Mail first-class postage prepaid a copy of the Petition For a Writ of Certiorari on this
15th day of December 2020 addressed as follows to the parties.
Adrian Viesca 200 Lewis Ave Atty. For courts
Las Vegas, Nev 89101 (702) 486-3205
viescaa@clarkcountvcourts. us

Attorney General for Nevada
555E. Washington ave suite 3900
Las Vegas Nv. 89101
Atty for the State

/

Kim Blandino #363075 Pro Se
CCDC In Custody House Arrest Module
330 S Casino Center Blvd.
Las Vegas, Nevada 89101
(702) 219-5657
Kim43792@earthlink.net

RECEIVED
DEC 2 2 2020
©FFICE OF THE CLERK
SUPREME COURT, U.S.

